TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Statistical Portrayal of the Tax Exempt
                 Bonds Office’s Enforcement Activities From
                 Fiscal Year 2002 Through Fiscal Year 2004



                                         September 2005

                              Reference Number: 2005-10-186




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Web Site          | http://www.tigta.gov
                                                  DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               September 30, 2005


 MEMORANDUM FOR COMMISSIONER, TAX EXEMPT AND GOVERNMENT ENTITIES
                DIVISION



 FROM:                         Pamela J. Gardiner
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Statistical Portrayal of the Tax Exempt Bonds
                               Office’s Enforcement Activities From Fiscal Year 2002 Through Fiscal
                               Year 2004 (Audit # 200510006)

 This report presents the results of our review of the Tax Exempt Bonds (TEB) office’s
 enforcement data for a 3-year period. The overall objectives of this review were to review
 relevant statistical data of the TEB office’s enforcement activities for Fiscal Years (FY) 2002 –
 2004 and analyze the data for trends.
 The TEB office’s primary method of ensuring tax-exempt bonds are in compliance with the
 Internal Revenue Code (I.R.C.) is through its Examination Program. The Program is designed to
 determine if bond issuers are in compliance with the legal guidelines for tax-exempt bonds. In
 addition, the TEB office performs examinations to determine if promoters of tax-exempt bonds
 should be penalized under I.R.C. Section (§) 67001 for misconduct.

 Synopsis
 Although the TEB office’s resources declined between FY 2002 and FY 2004, we determined
 the number of Full-Time Equivalents (FTE)2 applied to examination activities in the TEB office

 1
   I.R.C. § 6700 (2004) imposes a penalty for promoting an abusive tax shelter while making a false or fraudulent
 misrepresentation as to any material matter or for making a material gross valuation overstatement as to any material
 matter.
 2
   A measure of labor hours in which 1 FTE is equal to 8 hours multiplied by the number of compensable days in a
 particular fiscal year. For FYs 2002 and 2003, 1 FTE was equal to 2,088 staff hours; for FY 2004, 1 FTE was equal
 to 2,096 staff hours.
                      Statistical Portrayal of the Tax Exempt Bonds Office’s
                                   Enforcement Activities From
                            Fiscal Year 2002 Through Fiscal Year 2004


remained consistent. This higher percentage is consistent with the Internal Revenue Service’s
(IRS) commitment to divert more resources to the Enforcement Program areas. During the
3-year period we reviewed, the number of examinations increased; the number of examinations
that improved compliance increased; the number of examinations on compliant bond issues
decreased but were still more than 50 percent of the examinations conducted; the average time
spent on compliant bond examinations remained the same; average examination assessment
amounts decreased; and high-risk market segment examinations resulted in a slightly higher
average assessment amount than other examinations, but they took more than twice the average
staff days to complete.

Response
We made no recommendations in this report. The Commissioner, Tax Exempt and Government
Entities (TE/GE) Division, generally agreed with our statistical portrayal and noted that the data
usefully illuminate aspects of the TEB office’s operations and will be considered as the TEB
office continues to pursue a focused, ambitious compliance program. However, the
Commissioner, TE/GE Division, believes some statements in the report–those that seem to
equate success in compliance with dollars assessed–were misdirected and incomplete and some
conclusions may have been reached too casually. The Commissioner’s response provided
examples of additional types of data showing the TEB office’s impact on compliance,
particularly rebates collected, bonds redeemed, and revenue protected in future years.
Management’s complete response to the draft report is included as Appendix V.

Office of Audit Comment
Our review was based on the data provided by the TEB office during our fieldwork, and we
believe our results are representative of the data provided. While we agree the additional types
of data the Commissioner, TE/GE Division, referred to in the response are important measures,
the data were not included in the TEB office’s databases or records provided to us. Also, it was
never intended that our analysis include all TEB office program information. We concentrated
on the TEB office enforcement data resulting directly from the TEB office Enforcement
Program.
Copies of this report are also being sent to the IRS managers affected by the report findings.
Please contact me at (202) 622-6510 if you have questions or Daniel R. Devlin, Assistant
Inspector General for Audit (Headquarters Operations and Exempt Organizations Programs), at
(202) 622-8500.




                                                                                                     2
                              Statistical Portrayal of the Tax Exempt Bonds Office’s
                                           Enforcement Activities From
                                    Fiscal Year 2002 Through Fiscal Year 2004




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Challenges Remain for the Tax Exempt Bonds Office
          to Improve Enforcement of the Internal Revenue Code ...............................Page 3

Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology.......................Page 28
          Appendix II – Major Contributors to This Report ........................................Page 30
          Appendix III – Report Distribution List .......................................................Page 31
          Appendix IV – Government Accountability Office Report: Improvements
          for More Effective Tax-Exempt Bond Oversight – May 1993 Report
          Findings and Recommendations ...................................................................Page 32
          Appendix V – Management’s Response to the Draft Report .......................Page 34
                          Statistical Portrayal of the Tax Exempt Bonds Office’s
                                       Enforcement Activities From
                                Fiscal Year 2002 Through Fiscal Year 2004




                                             Background

The Tax Exempt Bonds (TEB) office within the Tax Exempt and Government Entities (TE/GE)
Division administers the Federal tax laws applicable to tax-exempt bonds.1 Tax-exempt bonds
include governmental and qualified private activity certificates of debt issued by State and local
governments or by organizations acting on their behalf, such as universities and nonprofit
organizations. They are used to finance various tax-exempt projects that are of benefit to the
public, such as courthouses, hospitals, airport expansions, and highways.
The economic benefit of tax-exempt status is a privilege the Federal Government provides to
governmental issuers. However, this economic benefit comes with a cost. The Department of
the Treasury estimated that $30 billion in Federal tax revenue would be lost for Fiscal
Year (FY) 2004 alone from tax on interest earned if the bonds were taxable.
The Internal Revenue Service (IRS) has acknowledged the need to address noncompliance for
tax-exempt bonds. For example, one of the objectives in the IRS’ FY 2005 – 2009 Strategic
Plan, issued June 2004, is to deter abuse within tax-exempt and governmental entities and misuse
of such entities by third parties for tax avoidance or other unintended purposes. In addition, one
part of the TEB office’s Enforcement Program focuses on identifying third-party abuse and
misconduct such as questionable financing transactions involving the use of bond financing to
cover current operating expenses instead of for a tax-exempt purpose. Another part of its
program involves tax promoter penalty investigations, which may result in referring lawyers, and
other professionals involved in abuse to the IRS Office of Professional Responsibility.
Bond issuers generally rely on attorneys specializing in tax-exempt bonds to ensure proposed
bonds comply with Federal laws and regulations. If the proceeds of the tax-exempt bonds are
not used for their intended purpose, the bonds may no longer be tax exempt, and the issuing
organization may be liable for the taxes as well as paying sanctions.2 In rare instances, if the
tax-exempt status of the bond issuance is rescinded, the bondholders may be required to pay tax
on the interest earned. The TEB office’s primary method of ensuring tax-exempt bonds are in
compliance with the I.R.C. is through its Examination Program. In addition, the TEB office
performs examinations to determine if promoters of tax-exempt bonds who engage in
misconduct should be penalized under Internal Revenue Code (I.R.C.) Section (§) 6700.3


1
  Internal Revenue Code (I.RC.) Section (§) 103(a) (2002) is the primary statutory provision that excludes interest
on municipal bonds from Federal income tax.
2
  Sanctions are payments intended to enforce compliance with the I.R.C.
3
  I.R.C. § 6700 (2004) imposes a penalty for promoting an abusive tax shelter while making a false or fraudulent
misrepresentation as to any material matter or for making a material gross valuation overstatement as to any material
matter.
                                                                                                             Page 1
                      Statistical Portrayal of the Tax Exempt Bonds Office’s
                                   Enforcement Activities From
                            Fiscal Year 2002 Through Fiscal Year 2004



We have several qualifying limitations about the statistical analyses presented in this report. We
did not receive sufficient and reliable data to complete all of our audit tests timely. TEB office
management informed us during the planning for this audit they did not have the resources to
obtain and copy the data we requested. As a result, we received the last of the data 6 months
after they were initially requested but did not receive explanations for questionable items in the
data until we completed our review. After TEB office management provided additional
information to explain some of the analyses, we revised the report accordingly. In addition, the
TEB office instituted procedures that prevented us from obtaining most information, manual or
electronic, directly from its source and required all information to be forwarded to the Director,
TEB, for review prior to being sent to us. Because we could not examine information from its
source, we could not independently confirm whether all information forwarded to us was
accurate and complete. We believe our results are representative of the data provided, but we do
not have assurance the data are an accurate reflection of all work accomplished by the TEB
office.
This review was performed at the TEB Headquarters Office in Washington, D.C., during the
period November 2004 through July 2005. With the exception of the scope limitations described
above, the audit was conducted in accordance with Government Auditing Standards. Detailed
information on our audit objectives, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                           Page 2
                         Statistical Portrayal of the Tax Exempt Bonds Office’s
                                      Enforcement Activities From
                               Fiscal Year 2002 Through Fiscal Year 2004




                                     Results of Review

Challenges Remain for the Tax Exempt Bonds Office to Improve
Enforcement of the Internal Revenue Code

The TEB office was established after the TE/GE Division became operational in FY 1999. At
that time, approximately 30 Exempt Organizations function revenue agents were reassigned
along with 2 managers to staff the new office. Because the revenue agents had only limited
tax-exempt bond experience, TEB office management spent part of the first several years
organizing the office and hiring and training new staff. TEB office management also developed
programs to provide education and outreach to their customers to help them comply with the
I.R.C., provided a program for their customers to voluntarily comply when they identify they are
out of compliance with the I.R.C., and developed a program (Examination Program) to identify
and examine customers who do not comply to bring them into compliance.
The remainder of this report reflects the efforts of the TEB office to enforce compliance with the
I.R.C. for tax-exempt bond customers using the Examination Program. We identified the
following trends from our analysis of TEB office data for FYs 2002 to 2004.

Resources applied to tax-exempt bond examination activities

According to the TE/GE Division Technical Time Reporting System4 data, the number of
Full-Time Equivalents (FTE)5 applied to examination activities in the TEB office has remained
consistent the past 3 years. In contrast, Chart 1 shows the number of FTEs available overall to
the TEB office declined over the same period, which indicates a greater portion of the TEB
office’s FTEs were used for the Examination Program. This higher percentage is consistent with
the IRS’ commitment to divert more resources to the Enforcement Program areas.




4
  This is a stand-alone DOS-based software application designed and developed to enable electronic tracking and
reporting of technical time.
5
  A measure of labor hours in which 1 FTE is equal to 8 hours multiplied by the number of compensable days in a
particular fiscal year. For FYs 2002 and 2003, 1 FTE was equal to 2,088 staff hours; for FY 2004, 1 FTE was equal
to 2,096 staff hours.
                                                                                                         Page 3
                                      Statistical Portrayal of the Tax Exempt Bonds Office’s
                                                   Enforcement Activities From
                                            Fiscal Year 2002 Through Fiscal Year 2004



             Chart 1: Total FTEs Expended in the TEB Office Versus FTEs
                      Used for Examinations (FY 2002 – FY 2004)

                                           56.8
                                      60
                                                                 51.8
                                                                                 48.5
                                      50
                     Number of FTEs




                                      40

                                      30
                                                  22.9                  22.3             21.5
                                      20

                                      10

                                      0
                                             2002                  2003               2004
                                                            Fiscal Years

                                                    Total FTEs     Examination FTEs




               Source: TE/GE Division Technical Time Reporting System.

Sustaining a full staff in the enforcement area may be a challenge. The Government
Accountability Office (GAO) presented testimony6 to Congress in March 2004, concluding that
priorities other than enforcement, including unbudgeted expenses, have consumed IRS budget
increases and savings over the last several years. TE/GE Division management has indicated
staffing the TEB office is difficult because of the high level of technical expertise needed for
tax-exempt bonds. Fewer employees available for the Enforcement Program could affect the
ability of TEB office management to enforce I.R.C. provisions related to tax-exempt bonds.

Total examinations conducted

There are several different statistics that can give an indication of the impact of the TEB office
Examination Program on compliance. One statistic is the total number of examinations
conducted each year. Chart 2 shows the TEB office closed more examinations in FY 2004 than



6
 Internal Revenue Service: Assessment of Fiscal Year 2005 Budget Request and 2004 Filing Season Performance
(GAO-04-560T, dated March 2004).
                                                                                                     Page 4
                                               Statistical Portrayal of the Tax Exempt Bonds Office’s
                                                            Enforcement Activities From
                                                     Fiscal Year 2002 Through Fiscal Year 2004



in the prior 2 years. This was despite the fact that FTEs for the Examination Program remained
consistent for the 3-year period.
    Chart 2: Number of Closed Examinations by Fiscal Year (FY 2002 – FY 2004)

                                               390
                                                                                   384
                      Number of Examinations




                                               380

                                               370
                                                        358
                                               360
                                                                      347
                                               350

                                               340

                                               330

                                               320
                                                        2002         2003          2004
                                                                  Fiscal Years

                   Source: Audit Information Management System (AIMS)7 data for
                    FY 2002 – FY 2004.

Prior to FY 2001, returns for tax-exempt bond issuances (Form 8038 series)8 were controlled on
the IRS Non-Master File. These returns were not included on the IRS Master File9 as processed
returns (i.e., Transaction Code 150). In January 2001, the TEB office began converting all the
Form 8038 series returns to Master File Transaction Code 150 postings. TEB office
management advised us that, when they converted the bond issuances to the Master File and
opened examinations on the cases, they identified some issuances that contained incorrect or
invalid information, such as an incorrect entity number or tax year. Return information for these
cases had not been verified as being correct when originally input to the Non-Master File.




7
  The AIMS is a computer system used by the TE/GE Division to control returns, input assessment/adjustments to
the Master File, and provide management information reports. The Master File is the IRS database that stores
various types of taxpayer account information, including individual, business, and employee plans and exempt
organizations data.
8
  Information Return for Tax-Exempt Private Activity Bond Issues (Form 8038); Information Return for
Tax-Exempt Governmental Obligations (Form 8038-G); Information Return for Small Tax-Exempt Governmental
Bond Issues, Leases, and Installment Sales (Form 8038-GC); and Arbitrage Rebate, Yield Reduction and Penalty in
Lieu of Arbitrage Rebate (Form 8038-T).
9
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
                                                                                                         Page 5
                      Statistical Portrayal of the Tax Exempt Bonds Office’s
                                   Enforcement Activities From
                            Fiscal Year 2002 Through Fiscal Year 2004



In 2002, the TEB office started deleting examinations containing incorrect or invalid information
from the AIMS by the use of Disposal Code 33 (Error Return). These accounts were
reestablished on the AIMS and Master File using correct and valid data. Because of this, we did
not include in our analysis the 499 cases that had been removed from the AIMS as “Error
Returns.” We also did not verify that all the accounts had been correctly reestablished on the
Master File. However, we plan to initiate an audit in this area in the future.
We also did not include 15 cases that were on the AIMS and closed as “Survey After
Assignment.” No examinations were actually initiated on these cases and no staff time was
applied.

Examinations of noncompliant bonds

Another indication of the impact of the Examination Program is the percentage of closed cases
that identified noncompliance with the I.R.C. (i.e., change cases). We determined this
percentage significantly improved for the 3-year period, from 22 percent in FY 2002 to
43 percent in FY 2004. Chart 3 shows the number of cases where examinations identified some
degree of noncompliance (change cases) versus examinations that determined the bonds were in
compliance with the I.R.C. (no change cases).




                                                                                          Page 6
                                       Statistical Portrayal of the Tax Exempt Bonds Office’s
                                                    Enforcement Activities From
                                             Fiscal Year 2002 Through Fiscal Year 2004



             Chart 3: Number of Examinations Identifying Noncompliant
               Versus Compliant Bond Issuances (FY 2002 – FY 2004)

                                 300             279

                                 250
                                                                                          217
               Number of Cases




                                                                      202
                                 200                                                167
                                                             145
                                 150

                                 100        79

                                 50

                                  0
                                              2002              2003                  2004
                                                            Fiscal Years

                                                       Change Cases     No Change

             Source: AIMS data for FY 2002 – FY 2004.

These change examinations included 22 bond issuances (4 in FY 2003 and 18 in FY 2004) for
which the tax-exempt status was rescinded.

Examinations of compliant bonds

Although the TEB office has increased the number of examinations where noncompliance is
identified, there is still a greater volume of examinations completed on what the IRS determines
to be compliant bond issuers. This is indicated by the number of examinations closed on the
AIMS without a change to the tax document (i.e., at the completion of the examination, the tax
documents are accepted as filed without change).




                                                                                                Page 7
                                          Statistical Portrayal of the Tax Exempt Bonds Office’s
                                                       Enforcement Activities From
                                                Fiscal Year 2002 Through Fiscal Year 2004



Chart 4 reflects the percentage of examinations each year that are closed without identifying
noncompliance for that bond issuance.
   Chart 4: Percentage of Examinations Resulting in No Change to Compliance
                              (FY 2002 – FY 2004)

                                    90%
                                                 78%
                                    80%

                                    70%
              Percentage of Cases




                                                                 58%             57%
                                    60%

                                    50%

                                    40%

                                    30%

                                    20%

                                    10%

                                    0%
                                                 2002            2003            2004
                                                              Fiscal Years

           Source: AIMS data for FY 2002 – FY 2004.

TEB office management desires to make the best use of limited examination resources, which
would be examinations of the noncompliant bond issues. The data indicate the examination
selection process improved in FYs 2003 and 2004, but there is a need for further improvement.
If TEB office management can identify any common characteristics for the noncompliant versus
the no change bond examinations, this could be used to improve the process for selecting bonds
with a high risk of noncompliance.




                                                                                                   Page 8
                               Statistical Portrayal of the Tax Exempt Bonds Office’s
                                            Enforcement Activities From
                                     Fiscal Year 2002 Through Fiscal Year 2004



Time expended on no change examinations

Chart 5 shows the average time spent on no change cases remained relatively stable, while the
average time on noncompliant examination cases increased in FY 2003 and decreased to
FY 2002 levels in FY 2004.
           Chart 5: Average Time Expended per No Change Examination
                               (FY 2002 – FY 2004)

                              250

                                                             198

                              200
                 Staff Days




                              150
                                           130        122                        133
                                                                           107
                                     100

                              100



                               50



                                0
                                       2002              2003                 2004
                                                      Fiscal Years

                                    No Change Cases   Other Exams (Minus Error,Surveyed)

               Source: AIMS data for FY 2002 – FY 2004.

We did not determine the reason for the significant variance in staff hours for the examinations
that identified some degree of noncompliance or if the amount of time spent on no change cases
is appropriate.




                                                                                           Page 9
                     Statistical Portrayal of the Tax Exempt Bonds Office’s
                                  Enforcement Activities From
                           Fiscal Year 2002 Through Fiscal Year 2004



Assessment amounts for noncompliant bonds

Another indicator of the success of the Examination Program is the amount assessed on the
noncompliance identified during examinations. Charts 6 and 7 note the total and average
assessments, respectively, for all noncompliance identified during examinations. These do not
include amounts for claims for refund, bonds that are determined to be taxable, delinquent
returns obtained, and changes made to related returns.
Charts 6 and 7 also do not include assessment amounts proposed by the TEB office but appealed
by the bond participant. Although the AIMS data contained the proposed assessment amount for
cases sent to the Office of Appeals for resolution, the proposed assessments were not
consistently reported in the AIMS data, so we did not include these amounts in our analyses.
  Chart 6: Total Examination Assessments per Fiscal Year (FY 2002 – FY 2004)

                                         $16,000,000
                                                                       $14,051,700
                                         $14,000,000

                                         $12,000,000
                     Total Assessments




                                                        $9,830,312
                                         $10,000,000
                                                                                        $7,287,254
                                          $8,000,000
                                                                           38
                                          $6,000,000
                                                           20
                                          $4,000,000
                                                                                           57
                                          $2,000,000

                                                 $0
                                                           2002            2003           2004
                                                                      Fiscal Years
                                         The number on the bar represents the number of cases w ith
                                         assessments.

                  Source: AIMS data for FY 2002 – FY 2004.




                                                                                                      Page 10
                                  Statistical Portrayal of the Tax Exempt Bonds Office’s
                                               Enforcement Activities From
                                        Fiscal Year 2002 Through Fiscal Year 2004



          Chart 7: Average Assessment per Examination (FY 2002 – FY 2004)


                                               $45,000
                                                                     $40,495
                                               $40,000
                         Average Assessments


                                               $35,000
                                                         $27,459
                                               $30,000
                                               $25,000
                                                                                  $18,977
                                               $20,000
                                               $15,000
                                               $10,000
                                                $5,000
                                                    $0
                                                          2002        2003         2004
                                                                   Fiscal Years


                     Source: AIMS data for FY 2002 – FY 2004.

Because examination assessments are made only on cases with noncompliance, we compared
Charts 3, 6, and 7. We observed the total number of bonds (from Chart 3) where noncompliance
was identified increased each year. However, the average assessment per case fluctuated for the
3 years but decreased from FY 2002 to FY 2004, which indicates the degree of noncompliance
identified during examinations was less in FY 2004 than it was in the prior 2 years.

Source of bond examinations

In the Examination Program, the TEB office works several different types of cases, including
Form 8038 series claims for recovery of arbitrage payments,10 information items, and referrals.11
Chart 8 shows the top six sources of examinations for FY 2002 through FY 2004.




10
   Arbitrage is the profit that results from investing the proceeds from tax-exempt bonds in higher yielding taxable
securities. Tax law generally requires a rebate of arbitrage profits to the United States Department of the Treasury.
11
   A document or other communication (e.g., telephone call) received from a source outside the IRS that alleges
potential noncompliance with the tax law.
                                                                                                             Page 11
                                          Statistical Portrayal of the Tax Exempt Bonds Office’s
                                                       Enforcement Activities From
                                                Fiscal Year 2002 Through Fiscal Year 2004



                                 Chart 8: Sources of Examinations (FY 2002 – FY 2004)

                                180

                                160

                                140
              Number of Cases




                                120

                                100

                                 80

                                 60

                                 40

                                 20

                                  0
                                                                                                   Informant
                                           Regular       Claims for      Directed   Information
                                                                                                  Report (3rd   New Project
                                        Classification    Refund         Samples       Report
                                                                                                     Party)

                                FY 02        153            43             74           49            4              0
                                FY 03        148            56             20           48            5             16
                                FY 04        128            70             67           24            36            23

                                                                      Sources of Examinations

             Source: AIMS data for FY 2002 – FY 2004.

The analysis indicates Regular Classification was the main source of examination cases for all
3 years. Regular Classification is a process to determine whether cases should be examined and
the priority of their selection. The second highest source was Claims for Refund, which are
examinations of requests to refund arbitrage payments. The third highest source of bonds for
examination was Directed Samples. Directed Samples are a selection of returns for specific
Project Initiatives.12




12
  Project Initiatives are used to measure the noncompliance of a particular market segment or TEB office return
population.
                                                                                                                              Page 12
                                   Statistical Portrayal of the Tax Exempt Bonds Office’s
                                                Enforcement Activities From
                                         Fiscal Year 2002 Through Fiscal Year 2004




Examinations of high-risk market segments

The TEB office conducts a risk assessment process to identify market segments of the bond
population where there may be a high risk for noncompliance. Bonds in those market segments
are then selected for examination through a sampling process. The TEB office determined for
the 3-year period, FY 2002 through FY 2004, that Solid Waste, Small Issue, and Housing were
the market segments with the highest risk for noncompliance. However, Chart 9 shows high-risk
market segment examinations were a small portion of the total examination inventory. For the
3-year period, high-risk market segment examinations were approximately 14 percent of the total
closed examinations.
          Chart 9: High-Risk Market Segment Examinations Compared to
                      Total Examinations (FY 2002 – FY 2004)

                             450
                             400                                                                     384
                                              358                        347
                             350
            Cases Examined




                             300
                             250
                             200
                             150
                             100
                                                                  62                          48
                                       39
                              50
                                                                 18%                        13%
                                      11%
                               0
                                         2002                      2003                         2004
                                                               Fiscal Years
                                              High-Risk Market Segment         Total Examinations
                                      The percentage represents the percentage of High-Risk Market Segment
                                      Examinations to Total Examinations.

         Source: AIMS data for FY 2002 – FY 2004.




                                                                                                             Page 13
                                  Statistical Portrayal of the Tax Exempt Bonds Office’s
                                               Enforcement Activities From
                                        Fiscal Year 2002 Through Fiscal Year 2004



Chart 10 shows the time spent working high-risk market segment cases compared to the total
examination time. For the 3-year period, the high-risk market segment examination staff days
were 27 percent of the total examination staff days. Comparing Charts 9 and 10, the high-risk
market segment examinations used proportionally more staff days. For example, the number of
high-risk market segment examinations for FY 2002 was 11 percent of the total examinations but
23 percent (1,081/4782) of the total examination time. Similarly, the number of high-risk market
segment examinations for FY 2004 was 13 percent of the total examinations but 28 percent
(1,597/5,669) of the total examination time.
    Chart 10: High-Risk Market Segment Examination Staff Days Versus Total
                  Examination Staff Days (FY 2002 – FY 2004)

                          8,000
                                                                   6,679
                          7,000
                                                                                            5,669
                          6,000
                                            4,782
             Staff Days




                          5,000

                          4,000

                          3,000
                                                         1,975
                                                                                 1,597
                          2,000
                                    1,081
                          1,000

                             0
                                        2002                  2003                    2004
                                                          Fiscal Years
                                            Market Segment Cases    All Examination Cases



           Source: AIMS data for FY 2002 – FY 2004.

Chart 16 shows the average staff days per high-risk market segment examinations, for the 3-year
period, is more than twice the average staff days of other examinations.




                                                                                                    Page 14
                     Statistical Portrayal of the Tax Exempt Bonds Office’s
                                  Enforcement Activities From
                           Fiscal Year 2002 Through Fiscal Year 2004



Analyses of high-risk market segment examinations

Comparing Chart 9 to Chart 11, we noted high-risk market segment examinations resulted in
approximately the same proportion of total assessment amounts when compared to other
examinations. For the 3-year period FY 2002 through FY 2004, 14 percent of the total
examinations were high-risk market segment examinations, and they yielded 15 percent of the
total assessment amount. However, as shown in Chart 15, high-risk market segment
examinations resulted in an 8 percent higher average assessment than other examinations.
  Chart 11: High-Risk Market Segment Examination Assessments Versus Other
                 Examination Assessments (FY 2002 – FY 2004)



                                                        $4,559,368,
                                                           15%




                                $26,609,898,
                                    85%



                       Market Segment Assessments   Other Examination Assessments

                Source: AIMS data for FY 2002 – FY 2004.




                                                                                      Page 15
                                        Statistical Portrayal of the Tax Exempt Bonds Office’s
                                                     Enforcement Activities From
                                              Fiscal Year 2002 Through Fiscal Year 2004



Although the TEB office identified 3 market segments as having the highest risk of
noncompliance, only 30 percent of the high-risk market segment examinations identified
noncompliance. Chart 12 shows how the 149 high-risk market segment examinations were
closed over the 3-year period (FY 2002 – FY 2004), with the majority of the closures resulting in
no change to the bond issuance.
         Chart 12: Disposition of High-Risk Market Segment Examinations
                                (FY 2002 – FY 2004)




                                         Change to            1
                                       Related Return

                                      Referral to Other       1
                                         Divisions
                 Disposition Action




                                                              1
                                       Bonds Taxable


                                             Appealed             16


                                            Closing                    25
                                          Agreements

                                                                                                    105
                                           No Change


                                                          0       20        40    60     80   100         120
                                                                            Number of Cases


              Source: AIMS data for FY 2002 – FY 2004.




                                                                                                                Page 16
                                Statistical Portrayal of the Tax Exempt Bonds Office’s
                                             Enforcement Activities From
                                      Fiscal Year 2002 Through Fiscal Year 2004



Chart 13 shows the number of examinations completed within the three high-risk market
segments (Housing is shown in single and multi-family categories) by fiscal year.
    Chart 13: Examinations by High-risk Market Segment (FY 2002 – FY 2004)


                                 30

                                 25
           Number of Cases




                                 20

                                 15

                                 10

                                  5

                                  0
                                       Small Issue Solid Waste    Single
                                                                           Multi-Family
                                       Compliance Disposal        Family
                                                                            Housing
                                        Follow-up   Facilities   Housing
                             FY 2002       21          15           2           1
                             FY 2003       13          27           7          15
                             FY 2004       15          12           6          15

                                                     Market Segments

         Source: AIMS data for FY 2002 – FY 2004.




                                                                                          Page 17
                                    Statistical Portrayal of the Tax Exempt Bonds Office’s
                                                 Enforcement Activities From
                                          Fiscal Year 2002 Through Fiscal Year 2004



Chart 14 shows the Small Issue and Solid Waste Market Segments identified more
noncompliance than the Housing Market Segment.
 Chart 14: High-Risk Market Segment Examinations Identifying Noncompliance
                             (FY 2002 – FY 2004)
                                    60
                                                                       54
                                                 49
                                    50
                                                                                             46
                  Number of Cases




                                    40



                                    30

                                                                 22

                                    20     18



                                    10
                                                                                        4

                                     0
                                          Small Issue           Solid Waste             Housing
                                                          Market Segments
                                                        Change Cases   Cases Examined




               Source: AIMS data for FY 2002 – FY 2004.




                                                                                                  Page 18
                                        Statistical Portrayal of the Tax Exempt Bonds Office’s
                                                     Enforcement Activities From
                                              Fiscal Year 2002 Through Fiscal Year 2004



Chart 15 shows that the average assessment per case for high-risk market segment cases was
slightly higher than the average for other examination cases.
     Chart 15: High-Risk Market Segment Average Assessment Versus Other
              Examination Average Assessment (FY 2002 – FY 2004)

                                      $31,000        $30,600


                                      $30,500

                                      $30,000
                Average Assessments




                                      $29,500

                                      $29,000
                                                                                    $28,308
                                      $28,500

                                      $28,000

                                      $27,500

                                      $27,000
                                                  Market Segment            Other Examination
                                                            Types of Examinations


             Source: AIMS data for FY 2002 – FY 2004.




                                                                                                Page 19
                     Statistical Portrayal of the Tax Exempt Bonds Office’s
                                  Enforcement Activities From
                           Fiscal Year 2002 Through Fiscal Year 2004



Chart 16 shows the average staff days expended per high-risk market segment examination
versus the average staff days expended per other examination cases. We noted the average staff
days per high-risk market segment case increased slightly over the 3 years of conducting these
high-risk market segment examinations. Comparing Charts 14 and 16, we noted the majority of
the examinations for all 3 high-risk market segments determined the bonds were compliant
(70 percent were closed as no change), although the third year examinations took slightly more
staff days to complete.
      Chart 16: High-Risk Market Segment Average Staff Days Versus Other
               Examination Average Staff Days (FY 2002 – FY 2004)

                                              35                                      33
                                                                    32
                                                   28
                                              30
                         Average Staff Days




                                              25

                                              20
                                                                         17
                                              15                                           12
                                                         12
                                              10

                                              5

                                              0
                                                    2002             2003              2004
                                                                  Fiscal Years

                                                        Market Segment   Other Examinations

                      Source: AIMS data for FY 2002 – FY 2004.

The high-risk market segment approach for selecting cases for examination appears not to be a
more effective way to identify cases with the most potential for noncompliance. The average
assessment amounts for high-risk market segment examinations are slightly more than the
average assessment amounts for other examination cases. However, the percentage of high-risk
market segment examinations that identified noncompliance (30 percent) is less than the
percentage of noncompliance identified in other examinations (37 percent), and the average staff
days to complete examinations of high-risk market segment cases is more than twice that of
other types of examinations.




                                                                                                Page 20
                      Statistical Portrayal of the Tax Exempt Bonds Office’s
                                   Enforcement Activities From
                            Fiscal Year 2002 Through Fiscal Year 2004



I.R.C. § 6700 examinations related to misconduct

Examinations related to I.R.C. § 6700 are performed to determine if a bond promoter engaged in
misconduct (e.g., misleads or causes others to be misleading about material matters) in
promoting the issuance of a tax-exempt bond under a specific I.R.C. section and, if so, whether a
penalty is warranted. I.R.C. § 6700 examinations can be started after a bond examination is
underway and potential misconduct is identified or can be opened as a new examination. If
misconduct is identified, a penalty can be assessed against the bond promoter under
I.R.C. § 6700. If the level of misconduct does not warrant an I.R.C. § 6700 penalty, a
miscellaneous penalty can be assessed using the same basis for calculating the I.R.C. § 6700
penalty (i.e., the penalty amount may be the same for an I.R.C. § 6700 penalty and a
miscellaneous penalty).
The TEB office assessed penalties under I.R.C. § 6700 on 5 cases totaling $15.5 million from
FY 2002 through FY 2004. We verified these assessments by tracing them to the IRS Master
File. In addition, miscellaneous penalties were assessed in the amount of $29.2 million. We did
not verify these miscellaneous penalties because they are not recorded as an assessment on the
bond account of the issuer but are assessed against the bond promoter. These payments are not
entered on the Master File because they are not assessable to the taxpayer’s account but are
instead entered on a special IRS general ledger account. The payments can be manually
transferred to the Master File at the request of TEB office management. Because we could not
readily trace these payments to ensure they were properly posted to the correct account, we plan
to review this area in a future audit.
For the purpose of this report, the information below includes all penalty amounts related to
misconduct (I.R.C. § 6700 penalties and miscellaneous penalties).




                                                                                          Page 21
                     Statistical Portrayal of the Tax Exempt Bonds Office’s
                                  Enforcement Activities From
                           Fiscal Year 2002 Through Fiscal Year 2004



Chart 17 shows the number of I.R.C. § 6700 examinations closed each year.
      Chart 17: Total I.R.C. § 6700 Examinations Closed (FY 2002 – FY 2004)

                                                 50
                                                                 44
                                                 45

                                                 40
                        Number of Examinations




                                                 35

                                                 30

                                                 25
                                                                            19
                                                 20   16
                                                 15

                                                 10

                                                 5

                                                 0
                                                      2002      2003        2004
                                                             Fiscal Years


                      Source: I.R.C. § 6700 manual records.




                                                                                   Page 22
                                      Statistical Portrayal of the Tax Exempt Bonds Office’s
                                                   Enforcement Activities From
                                            Fiscal Year 2002 Through Fiscal Year 2004



Chart 18 shows the number of I.R.C. § 6700 examinations closed each year with the related
assessment amounts.
           Chart 18: Total I.R.C. § 6700 Assessments (FY 2002 – FY 2004)

                                      $40,000,000

                                                    $34,036,013
                                      $35,000,000


                                      $30,000,000
                  Total Assessments




                                      $25,000,000


                                      $20,000,000
                                                        16
                                      $15,000,000


                                      $10,000,000
                                                                                $6,609,666
                                                                  $4,070,398
                                       $5,000,000
                                                                      44           19
                                              $0
                                                       2002         2003          2004
                                                                  Fiscal Year


               Source: I.R.C. § 6700 manual records.

Of the 79 I.R.C. § 6700 examinations closed, 39 cases had assessments totaling $44,716,077 for
misconduct from FY 2002 through FY 2004. However, in FY 2002, 1 entity’s assessment
totaled over $26 million. If that entity’s assessment was removed for the purpose of comparing
trends over the 3 years, the remaining assessments for FY 2002 (approximately $8 million)
would be more consistent with those of the other 2 years.




                                                                                             Page 23
                                        Statistical Portrayal of the Tax Exempt Bonds Office’s
                                                     Enforcement Activities From
                                              Fiscal Year 2002 Through Fiscal Year 2004



Chart 19 shows the average misconduct assessments for each fiscal year. The same trend as in
Chart 18 would result if the one high dollar FY 2002 assessment was removed.
       Chart 19: Average I.R.C. § 6700 Penalty Assessments for Cases With
                       Assessments (FY 2002 – FY 2004)

                                 $3,000,000


                                                   $2,431,144
                                 $2,500,000
           Assessment Per Case




                                 $2,000,000


                                 $1,500,000

                                                        14
                                 $1,000,000
                                                                                                       $660,967

                                  $500,000                                    $271,360
                                                                                                          10
                                                                                 15
                                        $0
                                                       2002                     2003                     2004
                                                                          Fiscal Years
                                              The numbers on the bars represent the number of cases w ith assessments,

         Source: I.R.C. § 6700 manual records.

We did not compare the average assessments from I.R.C. § 6700 examinations to the average
assessments for regular bond examinations because the I.R.C. § 6700 assessments are penalties
for promoter misconduct while the regular bond examination assessments are for bond
noncompliance with the I.R.C.




                                                                                                                         Page 24
                                     Statistical Portrayal of the Tax Exempt Bonds Office’s
                                                  Enforcement Activities From
                                           Fiscal Year 2002 Through Fiscal Year 2004



Chart 20 shows the number of I.R.C. § 6700 investigations that resulted in a no change compared
to total closures.
  Chart 20: I.R.C. § 6700 No Change Versus Total Closures (FY 2002 – FY 2004)


                                     50
                                                               44
                   Number of Cases




                                     40
                                                          27
                                     30
                                                                              19
                                     20         16
                                                                         10
                                     10
                                            2
                                      0
                                            2002          2003            2004
                                                      Fiscal Years

                                             No Change Cases   Total Closed Cases

              Source: I.R.C. § 6700 manual records.

The higher no change rates in FYs 2003 and 2004 are an indication that either the cases are not
as productive as they were in FY 2002 or the method for identifying potential misconduct cases
for examination needs improvement.




                                                                                          Page 25
                                 Statistical Portrayal of the Tax Exempt Bonds Office’s
                                              Enforcement Activities From
                                       Fiscal Year 2002 Through Fiscal Year 2004



Chart 21 shows the total staff days expended to work I.R.C. § 6700 examinations increased
between FY 2002 and FY 2004. Staff days included in this analysis include all staff days
expended on I.R.C. § 6700 examinations for the 3 fiscal years (not just the 79 closed cases).
Management information system limitations prevented us from identifying time expended only
on closed cases.
     Chart 21: Total Staff Days Expended to Work I.R.C. § 6700 Examinations
                               (FY 2002 – FY 2004)

                                 1,000
                                                                            917
                                  900
                                                         830
                                  800
                                  700
                                           543
                    Staff Days




                                  600
                                  500
                                  400

                                  300
                                  200

                                  100
                                    0
                                           2002         2003                2004
                                                     Fiscal Years


                  Source: TE/GE Division Technical Time Reporting System.

For FYs 2002 – 2004, a comparison of Charts 18 and 19 shows 49 percent (39 of 79) of the
I.R.C. § 6700 examinations resulted in assessments (in the amount of $44,716,077) or a referral
to another IRS division for further review. It is interesting to note the percentage of
I.R.C. § 6700 examinations that resulted in penalty assessments decreased from a high of
88 percent in FY 2002 to 34 percent in FY 2003 and 53 percent in FY 2004. Although the
overall 49 percent assessment rate is higher than for regular bond examinations (36 percent),
there are still opportunities for the TEB office to select more productive I.R.C. § 6700
examinations.
In 1993, the GAO reported (see Appendix IV for the report findings and recommendations) the
IRS did not use return information to identify probable noncompliance and target enforcement
efforts, lacked the ability to levy appropriate sanctions and penalties to discourage abuse in the
tax-exempt bond area, and could use I.R.C. § 6700 examinations to target those responsible for
noncompliance if they were involved in promoting a bond as an abusive tax shelter.



                                                                                            Page 26
                      Statistical Portrayal of the Tax Exempt Bonds Office’s
                                   Enforcement Activities From
                            Fiscal Year 2002 Through Fiscal Year 2004



The charts in this report indicate the TEB office is now using the tools identified in the GAO
report to improve noncompliance with the I.R.C. However, there is room for improvement in the
TEB office’s efforts to ensure compliance for tax-exempt bonds. With the IRS Commissioner’s
increased emphasis on compliance, there is a need for the TEB office to reevaluate the way it
uses its enforcement resources to have the biggest impact on compliance.
The analyses in this report indicate the following:
•   The number of examinations increased, but more than one-half of the examinations are on
    compliant bond issues.
•   Average examination assessment amounts have fluctuated but decreased over the 3-year
    period of analysis.
•   The market segment method of selecting high-risk cases results in more than twice the
    average staff days to complete examinations and slightly higher average assessment amounts.
•   Approximately one-half of the I.R.C. § 6700 examinations and more than one-half of the
    regular bond examinations result in no change.
These are indications the TEB office needs to better select bonds for examination and for
misconduct examinations under I.R.C. § 6700. Selecting cases where there is a high risk of
noncompliance may increase productivity and enable the TEB office to improve compliance
within the tax-exempt bond population.
Management’s Response: The Commissioner, TE/GE Division, generally agreed with our
statistical portrayal and noted that the data usefully illuminate aspects of the TEB office’s
operations and will be considered as the TEB office continues to pursue a focused, ambitious
compliance program. However, the Commissioner, TE/GE Division, believes some statements
in the report–those that seem to equate success in compliance with dollars assessed–were
misdirected and incomplete and some conclusions may have been reached too casually. The
Commissioner’s response provided examples of additional types of data showing the TEB
office’s impact on compliance, particularly rebates collected, bonds redeemed, and revenue
protected in future years.
Office of Audit Comment: Our review was based on the data provided by the TEB office
during our fieldwork, and we believe our results are representative of the data provided. While
we agree the additional types of data the Commissioner, TE/GE Division, referred to in the
response are important measures, the data were not included in the TEB office’s databases or
records provided to us. Also, it was never intended that our analysis include all TEB office
program information. We concentrated on the TEB office enforcement data resulting directly
from the TEB office Enforcement Program.




                                                                                         Page 27
                         Statistical Portrayal of the Tax Exempt Bonds Office’s
                                      Enforcement Activities From
                               Fiscal Year 2002 Through Fiscal Year 2004



                                                                                                Appendix I

        Detailed Objectives, Scope, and Methodology

Our overall objectives were to review relevant statistical data of the Tax Exempt Bonds (TEB)
office’s enforcement activities for Fiscal Years (FY) 2002 - 2004 and analyze the data for trends.
To accomplish our objectives, we:
I.      Reviewed data relating to the TEB office’s enforcement activities.
        A. Obtained Tax Exempt and Government Entities Division Technical Time Reporting
           System data from the Director, TEB, for FYs 2001 through 2004 to determine the
           time applied to examination and Internal Revenue Code (I.R.C.) Section (§) 6700
           (2004) investigations.
        B. Obtained Statistics of Income Data from the Treasury Inspector General for Tax
           Administration Data Warehouse for Calendar Years 1996 through 1999 to determine
           the numbers of bonds issued in the various market segments.
        C. Obtained an Audit Information Management System (AIMS)1 extract from the
           Director, TEB, to identify all examinations controlled on the AIMS since its
           inception.
        D. Obtained quarterly field reports and Inventory Spreadsheets from the Director, TEB,
           to determine the results of the enforcement activities within the TEB office.
II.     Analyzed the available data for trends in enforcement activities.
        A. Determined sources for examinations by fiscal year.
             1. Number by referrals.
             2. Number by information item.
             3. Number by Regular Classification.
        B. Determined staffing metrics by fiscal year.
             1. Average hours/days per case.
             2. Average hours/days per type of case.


1
  The AIMS is a computer system used by the Tax Exempt and Government Entities Division to control returns,
input assessment/adjustments to the Master File, and provide management information reports. The Master File is
the Internal Revenue Service database that stores various types of taxpayer account information and including
individual, business, and employee plans and exempt organizations data.

                                                                                                        Page 28
                     Statistical Portrayal of the Tax Exempt Bonds Office’s
                                  Enforcement Activities From
                           Fiscal Year 2002 Through Fiscal Year 2004



       C. Determined examination results by fiscal year.
          1. Number of examinations.
          2. Average assessment/penalties/sanctions per examination, as well as the range for
             all examinations.
          3. Average assessment/penalty/sanction per type (market segment) of examination,
             as well as the range for all examinations.
          4. Number/percentage of examinations that resulted in I.R.C § 6700 referrals.
          5. Number/percentage of examinations that resulted in criminal referral (to the
             Internal Revenue Service Criminal Investigation function or other government
             agencies).
          6. Number/percentage of cases that resulted in closing agreements.
          7. Number/percentage of cases that resulted in a discrepancy adjustment requiring
             revocation of tax-free interest income to bondholders.
III.   Compared the results of the TEB office market segment analysis to examinations opened
       to determine if examination trends follow the areas of highest risk identified by the
       market segment analysis.




                                                                                          Page 29
                     Statistical Portrayal of the Tax Exempt Bonds Office’s
                                  Enforcement Activities From
                           Fiscal Year 2002 Through Fiscal Year 2004



                                                                              Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
Nancy A. Nakamura, Director
Gerald T. Hawkins, Audit Manager
Barry G. Huff, Lead Auditor
Cheryl J. Medina, Senior Auditor
Jeffery Smith, Senior Auditor
Yolanda D. Brown, Auditor




                                                                                      Page 30
                    Statistical Portrayal of the Tax Exempt Bonds Office’s
                                 Enforcement Activities From
                          Fiscal Year 2002 Through Fiscal Year 2004



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Director, Government Entities, Tax Exempt and Government Entities Division SE:T:GE
Director, Tax Exempt Bonds, Tax Exempt and Government Entities Division SE:T:GE:TEB
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis TAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Director, Communications and Liaison, Tax Exempt and Government Entities
Division SE:T:CL




                                                                                   Page 31
                     Statistical Portrayal of the Tax Exempt Bonds Office’s
                                  Enforcement Activities From
                           Fiscal Year 2002 Through Fiscal Year 2004



                                                                                 Appendix IV

          Government Accountability Office Report:
              Improvements for More Effective
           Tax-Exempt Bond Oversight – May 1993
           Report Findings and Recommendations

Findings
In 1993, the Government Accountability Office (GAO) report stated:
•      The Internal Revenue Service (IRS) does not use the return information to spot probable
       noncompliance and target enforcement efforts.
•      The Expanded Bond Audit Program has pursued cases identified through tips and other
       outside sources. A more proactive effort that includes reviews of some more current
       bond issues would enhance the IRS’ knowledge of current compliance problems and
       better position the IRS to determine whether it is obtaining an acceptable deterrent effect
       from its enforcement presence.
•      Revenue agents assigned to the Expanded Bond Audit Program have not received final
       guidance providing current procedures to detect noncompliance and address abuses.
       Current staffing and training practices, which were established so the Expanded Bond
       Audit Program could investigate a specific group of abuses, may not be appropriate for
       these broader efforts. Agents have limited opportunities in which to apply their training
       and have not been trained on the many other tax-exempt bond requirements they would
       need to know to recognize other forms of noncompliance.
•      The IRS’ tax-exempt bond efforts do not have objectives or strategies to identify and
       resolve key tax-exempt bond oversight issues.
•      The basic sanction available to the IRS is to tax interest earned by bondholders on
       abusive bonds. The IRS has been reluctant to use this sanction because it punishes
       investors rather than responsible parties directly, is complex to administer, and is often
       disproportionately severe. In about 70 cases since 1981, the IRS used a closing
       agreement–a mechanism to settle various tax disputes–to negotiate a settlement with an
       issuer of a bond the IRS considered noncompliant. However, according to an IRS
       official, such agreements are not designed to promote voluntary compliance. For
       example, according to IRS officials, closing agreements are typically much smaller than
       profits from the noncompliance. Thus, they provide little incentive to comply. Despite


                                                                                           Page 32
                      Statistical Portrayal of the Tax Exempt Bonds Office’s
                                   Enforcement Activities From
                            Fiscal Year 2002 Through Fiscal Year 2004



       the IRS’ reluctance to tax interest in cases in which bonds do not comply with tax-
       exemption requirements, it has recently begun considering this sanction.
•      Another potential penalty, clarified to be applicable to tax-exempt bonds in 1989, is the
       penalty in Internal Revenue Code (I.R.C.) Section (§) 6700 for promoting abusive tax
       shelters, which would target those responsible for noncompliance if they were involved
       in promoting a bond as an abusive shelter of income for tax purposes. This penalty
       requires the IRS to prove that someone intentionally promoted a bond through which
       investors could illegally shelter income and avoid paying taxes. Because the IRS has not
       actually tried to apply this penalty in the area of tax-exempt bonds, it is not known how
       difficult it will be to prove such intent for complex tax-exempt bond transactions.
•      If information about tax-exempt bond enforcement actions could be released, such as
       information on the types of bonds the IRS has found to be abusive or the identities of
       participants in abusive bonds, the market participants the IRS relies on to ensure
       compliance with bond requirements could make more reasoned judgments about
       tax-related compliance risks.
Recommendations
The GAO recommended the Commissioner of the Internal Revenue Service:
•      Partially redirect existing Expanded Bond Audit Program efforts to include active testing
       of current market compliance; identify and make better use of information to detect
       noncompliance and direct enforcement efforts; provide final guidance for tax-exempt
       bond enforcement; and reassess program staffing levels, locations, and training needs in
       light of the Program’s future.
•      Develop and implement a plan to guide efforts throughout the IRS to make more
       effective use of resources to promote voluntary compliance in the tax-exempt bond
       industry. This plan should establish clear objectives and coordinated, proactive strategies
       to achieve the objectives; assess staff and information needs to carry out the strategies;
       and set measurable goals.
•      Test the use of the I.R.C. § 6700 penalty for promoting abusive tax shelters in tax-exempt
       bond enforcement.
The GAO also recommended Congress may want to consider several options to enhance
tax-exempt bond voluntary compliance.
•   First, Congress may want to consider the adoption of other penalties for specific kinds of
    noncompliance.
•   Second, Congress may want to consider whether permitting the disclosure of some
    tax-exempt bond-related tax information, with appropriate safeguards, would improve overall
    compliance incentives in the industry.

                                                                                           Page 33
      Statistical Portrayal of the Tax Exempt Bonds Office’s
                   Enforcement Activities From
            Fiscal Year 2002 Through Fiscal Year 2004



                                                     Appendix V

Management’s Response to the Draft Report




                                                               Page 34
Statistical Portrayal of the Tax Exempt Bonds Office’s
             Enforcement Activities From
      Fiscal Year 2002 Through Fiscal Year 2004




                                                         Page 35
